Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 





  THE UNIVERSITY OF MICHIGAN 

CLAIMED ALLOWABLE EQUIPMENT 

    COSTS UNDER NATIONAL 

 INSTITUTES OF HEALTH GRANTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                                    Sheri L. Fulcher 

                                               Regional Inspector General 


                                                       March 2013 

                                                      A-05-12-00075 

                        Office of Inspector General
                                         https://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                          INTRODUCTION 


 The University of Michigan claimed $5,175,396 in allowable equipment costs under the
 terms of its NIH grants and complied with all applicable Federal regulations.

WHY WE DID THIS REVIEW

During a prior audit of equipment costs, we found that a university claimed Federal
reimbursement for equipment costs exceeding $25,000 that were significantly rebudgeted and
did not receive prior approval from the National Institutes of Health (NIH). As a result of that
audit, University of Wisconsin–Madison Claimed Allowable Costs Under Recovery Act Grants
(A-05-11-00102, Issued September 27, 2012), we conducted an audit of equipment purchases
exceeding $25,000.

OBJECTIVE

The objective of this review was to determine whether equipment purchases exceeding $25,000
funded through NIH grants were allowable under the terms and conditions of the grants and
applicable Federal regulations.

BACKGROUND

The NIH is the steward of medical and behavioral research for the nation. Its mission is science
in pursuit of fundamental knowledge about the nature and behavior of living systems and the
application of that knowledge to extend healthy life and reduce the burdens of illness and
disability. Research supported through the issuance of grants and cooperative agreements enable
NIH to fulfill its mission to make medical discoveries that improve health and save lives.

NIH grants and cooperative agreements are awarded as discretionary grants. NIH has the
authority to determine the recipient of the grant and/or cooperative agreement and the amount
awarded. NIH programs are legislatively authorized by Congress, which also defines the
purpose and policy, authorization of appropriations, allotment of funds, limitation on assistance,
and other things, for the programs. Furthermore, each Institute and Center establishes specific
goals for the unit, grant programs, and activities.

The University of Michigan (the grantee), founded in 1817, is a comprehensive teaching and
research university. The grantee made 43 equipment purchases, exceeding $25,000, with NIH
funds in the amount of $5,175,396. The purchase period was January 1, 2011, through
December 31, 2011.

HOW WE CONDUCTED THIS REVIEW

We reviewed all 43 equipment purchases totaling $5,175,396 that were purchased with NIH
grant funds during the period January 1, 2011, through December 31, 2011. We did not perform
an overall assessment of the grantee’s internal control structure. Rather, we limited our



The University of Michigan Claimed Allowable Equipment Costs (A-05-12-00075)                         1
evaluation of the grantee’s procurement process to obtaining an understanding of internal
control as it relates to the specific objective and scope of the audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, and Appendix B contains
details on the Federal requirements related to NIH grants.

We conducted fieldwork at the grantee’s financial operations office in Ann Arbor, Michigan in
September 2012.

RESULTS OF REVIEW

The $5,175,396 in costs covered by our review were allowable under the terms of the grants and
applicable Federal regulations. Accordingly, this report contains no recommendations.




The University of Michigan Claimed Allowable Equipment Costs (A-05-12-00075)                    2
                        APPENDIX A: SCOPE AND METHODOLOGY 


SCOPE 


We reviewed all 43 equipment purchases totaling $5,175,396 that were purchased with NIH
grant funds during the period January 1, 2011, through December 31, 2011. We did not perform
an overall assessment of the grantee’s internal control structure. Rather, we limited our
evaluation of the grantee’s procurement process to obtaining an understanding of internal control
as it relates to the specific objective and scope of the audit.

We conducted fieldwork at the grantee’s financial operations office in Ann Arbor, Michigan in
September 2012.

METHODOLOGY

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and program guidance;

       requested a listing of equipment purchases for all NIH grants for the audit period;

       summarized equipment purchases that exceeded $25,000;

       interviewed grantee officials;

       determined if the purchase of any particular unit of equipment was split across different
        grants;

       determined whether duplicate purchases of equipment were improperly charged to the
        same grant or different grants;

       reviewed the timing of equipment purchases and any unusually large purchases at the end
        of the grant period;

       held discussions with the grantee’s staff to determine whether equipment costs were
        reasonable and whether anyone certified that the equipment was not available prior to the
        purchase;

     determined whether competitive bids were obtained when necessary;

     determined whether equipment was placed in the inventory records and noted as being
      purchased with Federal funds; and

       determined if prior approval was sought from NIH for equipment purchases in excess of
        $25,000 if the equipment was not included in the approved grant.


The University of Michigan Claimed Allowable Equipment Costs (A-05-12-00075)                        3
                                                                                 APPENDIX A 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The University of Michigan Claimed Allowable Equipment Costs (A-05-12-00075)                   4
    APPENDIX B: FEDERAL REQUIREMENTS FOR NATIONAL INSTITUTES OF 

                          HEALTH GRANTEES

FEDERAL REGULATIONS

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (Office of Management and
Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by
45 CFR § 74.27.

NIH POLICY

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (NIH Grants Policy Statement). The Grants Policy Statement provides NIH grantees,
in a single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.




The University of Michigan Claimed Allowable Equipment Costs (A-05-12-00075)                       5
